           OFFICE OF

    THE INSPECTOR GENERAL



SOCIAL SECURITY ADMINISTRATION



   FINANCIAL-RELATED AUDIT OF

  AN INDIVIDUAL REPRESENTATIVE

          PAYEE FOR THE

 SOCIAL SECURITY ADMINISTRATION



     July 2001   A-03-00-10064

                                    Mission
We improve SSA programs and operations and protect them against fraud, waste,
and abuse by conducting independent and objective audits, evaluations, and
investigations. We provide timely, useful, and reliable information and advice to
Administration officials, the Congress, and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

  � Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
  � Promote economy, effectiveness, and efficiency within the agency.
  � Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
  � Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
  � Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:


  � Independence to determine what reviews to perform.

  � Access to all information necessary for the reviews.

  � Authority to publish findings and recommendations based on the reviews.


                                     Vision
By conducting independent and objective audits, investigations, and evaluations,
we are agents of positive change striving for continuous improvement in the
Social Security Administration's programs, operations, and management and in
our own office.
                                      SOOAL        SECURITY
ICN 31208-23-187                       Officeof the InspectorGeneral
MEMORANDUM

Date:      Jtlf-   2 7 2001                                                  Refer To:

T .Myrtle         S. Habersham
 0.       Regional   Commissioner

             for Atlanta


           Inspector General



Subject:   Financial-Related Audit of an Individual Representative Payee for the Social Security
           Administration (A-03-00-10064)


           The attached final report presents the results of our audit. Our objectives were to
           determine whether the individual representative payee (1) had effective safeguards
           over the receipt and disbursement of Social Security benefits and (2) ensured Social
           Security benefits were used and accounted for in accordance with the Social Security
           Administration's policies and procedures.

           Please comment within 60 days from the date of this memorandum on corrective
           actions taken or planned on each recommendation, If you wish to discuss the final
           report, please call me or have your staff contact Steven L. Schaeffer, Assistant
           Inspector General for Audit, at (410) 965-9700.




           Attachment

           cc:
           Fritz Streckewald
           JoEllen Felice
           Helen Hepner




~

                                                 Executive Summary

OBJECTIVE

Our objectives were to determine whether the individual Representative Payee (Rep
Payee) (1) had effective safeguards over the receipt and disbursement of Social
Security benefits and (2) ensured Social Security benefits were used and accounted for
in accordance with the Social Security Administration’s (SSA) policies and procedures.

BACKGROUND

Some individuals cannot manage or direct the management of their finances because
of their age or mental and/or physical impairments. Congress granted SSA the
authority to appoint Rep Payees to receive and manage these beneficiaries’ and
recipients’ benefit payments. A Rep Payee may be an individual or an organization.
SSA selects Rep Payees for Old-Age, Survivors and Disability Insurance (OASDI)
beneficiaries or Supplemental Security Income (SSI) recipients when payments to Rep
Payees would serve the individual’s interest.

Rep Payees are responsible for using benefits to serve the beneficiary's or recipient’s
best interests. Their duties include:

•	 Using benefits to meet the beneficiary's or recipient’s current and foreseeable
   needs;

•	 Conserving and investing benefits not needed to meet the beneficiary's or recipient’s
   current needs;

•   Maintaining accounting records of how the benefits are received and used;

•	 Reporting events to SSA that may affect the beneficiary's or recipient’s entitlement
   or benefit payment amount;

•	 Reporting any changes in circumstances that would affect their performance as a
   Rep Payee; and

•	 Providing SSA annual Representative Payee Reports accounting for how benefits
   were spent and invested.

The individual Rep Payee we audited has served as an SSA Rep Payee since 1980.
He is an attorney in a law firm located in Georgia, administering the finances of
approximately 90 individuals, 53 of whom received SSA benefits. In addition to meeting
SSA requirements, the individual Rep Payee is required to submit annual accounting
forms to the county probate court if also acting as a guardian for these individuals. The


Financial-Related Audit of an Individual Representative Payee for SSA (A-03-00-10064)     i
Rep Payee is also required to submit annual accounting forms to the Department of
Veterans Affairs (VA) if the beneficiary receives VA benefits.

RESULTS OF REVIEW

Based on our audit, the individual Rep Payee we examined generally (1) had effective
safeguards over the receipt and disbursement of Social Security benefits and
(2) ensured that Social Security benefits were used and accounted for in accordance
with SSA’s policies and procedures. We found that for all 53 beneficiaries serviced by
the Rep Payee, (1) the Rep Payee accurately recorded benefits SSA paid; (2) all
expenses appeared to be proper; and (3) the Rep Payee maintained source documents
that allowed us to determine that sampled expenses were reasonable and authentic.
However, we could not determine whether the Rep Payee properly reported to SSA
how benefits were used because SSA could not locate any of the Rep Payee Reports
we requested. (See Other Matters section of this report.)

The Rep Payee received $352,051 in SSA payments for 53 individuals from September
1999 through August 2000. During our audit, we found one case where excess
resources led to an $8,092 SSI overpayment. We also found two cases where disabled
beneficiaries had earnings that had not been investigated by SSA at the time of our
audit. These earnings may affect the eligibility of the beneficiaries. We determined that
SSA’s Rep Payee System (RPS) was inaccurate since it (1) lacked information on all
the individuals who were under the Rep Payee’s care and (2) listed the Rep Payee we
were reviewing under two separate accounts. We also found that one individual had
two different Rep Payees. In both the overpayment and dual Rep Payee cases, SSA
was informed of the events but failed to take timely action. Finally, SSA needs to
improve communications with other government agencies, such as VA and the local
county, to better coordinate the care of individuals under the Rep Payee's charge.

CONCLUSIONS AND RECOMMENDATIONS
Generally, the Rep Payee we audited met its responsibilities. However, we found one
instance where excessive resources led to an overpayment and two additional cases of
earnings that SSA is still investigating. We also determined that the RPS did not
contain a complete listing of individuals under the Rep Payee's care and one individual
had dual Rep Payees. In the overpayment and the dual Rep Payees cases, SSA was
informed of the events but failed to take timely action. In addition, communications
between SSA and other agencies caring for individuals under the Rep Payee needed
improvement.




Financial-Related Audit of an Individual Representative Payee for SSA (A-03-00-10064)   ii
We recommend that SSA:

•	 Ensure the Rep Payee returns funds it received for the recipient who was ineligible
   due to excess resources.

•	 Re-emphasize procedures with the Rep Payee for notifying SSA when events occur
   that affect the eligibility of individuals in its care.

•	 Update the RPS to consolidate the multiple entries for this Rep Payee and include
   all individuals for whom this Rep Payee was selected. In addition, ensure that all
   individuals assigned a Rep Payee have only one Rep Payee for all SSA benefits
   received.

•	 Take timely action on program-related issues reported to SSA by the Rep Payee,
   such as excessive resources and dual Rep Payees.

•	 Consider changing its method of communication and information sharing with other
   government agencies, such as assigning a point-of-contact between SSA and other
   agencies assisting the individuals under the Rep Payee's care.

AGENCY COMMENTS

In response to our draft report, SSA agreed with our recommendations and stated that
the Agency already initiated corrective actions. Specifically, SSA collected the
identified overpayment. In addition, SSA contacted the Rep Payee to (1) reinforce the
need for timely reporting of any events affecting an individual's eligibility and (2) update
and correct the Rep Payee's information in the RPS. The full text of SSA’s comments
can be found in Appendix A of this report.




Financial-Related Audit of an Individual Representative Payee for SSA (A-03-00-10064)      iii
                                                                        Table of Contents

                                                                                                                     Page


INTRODUCTION .................................................................................................... 1


RESULTS OF REVIEW.......................................................................................... 7


   Oversight of SSA Benefits .................................................................................. 7


   Eligibility Issues .................................................................................................. 7


   Representative Payee System Was Not Accurate ............................................. 8


   Two Representative Payees for the Same Individual......................................... 9


   Communications with Other Government Agencies ........................................... 9


CONCLUSIONS AND RECOMMENDATIONS .................................................... 10


OTHER MATTERS............................................................................................... 11


APPENDICES

APPENDIX A – Agency Comments

APPENDIX B – OIG Contacts and Staff Acknowledgments





Financial-Related Audit of an Individual Representative Payee for SSA (A-03-00-10064)
                                                                         Acronyms

DFCS              Dekalb County Division of Family and Children Services


MBR               Master Beneficiary Record


OASDI             Old-Age, Survivors and Disability Insurance


Rep Payee         Representative Payee


RPS               Representative Payee System


RPR               Representative Payee Report


SSA               Social Security Administration


SSI               Supplemental Security Income


SSR               Supplemental Security Record


VA                Department of Veterans Affairs





Financial-Related Audit of an Individual Representative Payee for SSA (A-03-00-10064)
                                                                     Introduction

OBJECTIVE
Our objectives were to determine whether the individual representative payee (Rep
Payee) (1) had effective safeguards over the receipt and disbursement of Social
Security benefits and (2) ensured Social Security benefits were used and accounted for
in accordance with the Social Security Administration’s (SSA) policies and procedures.

BACKGROUND

Some individuals cannot manage or direct the management of their finances because
of their age or mental and/or physical impairments. Congress granted SSA the
authority to appoint Rep Payees to receive and manage these beneficiaries’ and
recipients’ benefit payments. A Rep Payee may be an individual or an organization.
SSA selects Rep Payees for Old-Age, Survivors and Disability Insurance (OASDI)
beneficiaries or Supplemental Security Income (SSI) recipients when payments to Rep
Payees would serve the individual’s interest.

REPRESENTATIVE PAYEE RESPONSIBILITIES

Rep Payees are responsible for using benefits to serve the beneficiary's or recipient’s
best interests. Their duties include:

•	 Using benefits to meet the beneficiary's or recipient’s current and foreseeable
   needs;

•	 Conserving and investing benefits not needed to meet the beneficiary's or recipient’s
   current needs;

•   Maintaining accounting records of how the benefits are received and used;

•	 Reporting events to SSA that may affect the beneficiary's or recipient’s entitlement
   or benefit payment amount;

•	 Reporting any changes in circumstances that would affect their performance as a
   Rep Payee; and

•	 Providing SSA annual Representative Payee Reports accounting for how benefits
   were spent and invested.




Financial-Related Audit of an Individual Representative Payee for SSA (A-03-00-10064)     1
In addition, the individual Rep Payee we audited is required to submit annual
accounting forms to the county probate court if acting as a guardian. The Rep Payee is
also required to submit annual accounting forms to the Department of Veterans Affairs
(VA) if the beneficiary receives VA benefits.

As noted above, the Rep Payee is required to report events to SSA that may affect the
individual's entitlement or benefit payment amount. For example, under the SSI
program a recipient is limited to $2,000 in resources to remain eligible for benefits.1 If
the recipient exceeds this resource limit, SSA suspends the recipient’s SSI payments.
Such payments will resume if the recipient’s resources later fall below the limit. As a
result, the Rep Payee must notify SSA if a recipient’s resources exceed the limit in any
given month.

Earnings can also affect an individual’s eligibility for SSA benefits. For example, if
individuals are able to perform substantial gainful activity,2 they may not be entitled to
receive SSA disability payments. The Rep Payee is required to report the earnings of
individuals receiving disability payments, and SSA then investigates these earnings to
determine whether the individual should continue to be eligible for benefits.

REPRESENTATIVE PAYEE SYSTEM

About 6.5 million individuals have Rep Payees—approximately 4.2 million are OASDI
beneficiaries, 1.7 million are SSI recipients, and 500,000 are entitled to both OASDI
and SSI.3 Table 1 reflects the types of Rep Payees and the number of individuals they
serve.




1
  20 C.F.R.§ 416.202(d) indicates that individuals are eligible for SSI benefits if they do not have more
resources than are permitted. 20 C.F.R. § 416.1205 sets forth the statutory resource limit of $2,000 for
single individuals and $3000 for married individuals.
2
  The term "substantial gainful activity" (SGA) is used to describe a level of work activity and earnings.
"Substantial" work activity involves doing significant physical or mental work, or a combination of both, that
is productive. SSA’s Program Operations Manual System (POMS) § DI 24001.025 indicates that more
than $700 per month is considered substantial earnings for non-blind individuals for the months of July
1999 through December 2000. According to POMS § DI 24001.001, "gainful" work activity is the kind of
work usually done for pay, whether in cash or in kind, or for profit, whether or not a profit is realized.
3
    Numbers do not add due to rounding.


Financial-Related Audit of an Individual Representative Payee for SSA (A-03-00-10064)                       2
                                 Table 1: SSA Rep Payees


                                                           Number                  Number of
                    Type of                                   of                   Individuals
                   Rep Payee                              Rep Payees                 Served
    Individual Payees: Parents, Spouses,
    Adult Children, Relatives, and Others                    4,155,000               5,750,000

    Organizational Payees: State Institutions,
    Local Governments and Others                                 44,150                690,000

    Organizational Payees: Fee-for-Service                           850                 60,000

                        Total                                4,200,000               6,500,000

The SSA Rep Payee System (RPS) contains information about Rep Payees and
beneficiaries and/or recipients who have payees. The information includes current and
prior Rep Payees, applicants who are not selected, applicants who should not be
selected, and misuse of funds indicators. The RPS also includes information on the
beneficiaries/recipients who are under a Rep Payee’s care, were previously under a
Rep Payee’s care, or are being placed under a Rep Payee’s care pending SSA
approval.

SELECTED INDIVIDUAL REPRESENTATIVE PAYEE

The Rep Payee we audited has served as an SSA Rep Payee since 1980. He is an
attorney in a law firm located in Georgia, administering the finances of approximately
90 individuals. From September 1999 through August 2000, 53 of these individuals
received $352,051 in SSA benefits (see Table 2). Most of them also received other
income, such as VA benefits and investment income. Their conserved funds ranged
from $365 to over $1.3 million.4 In addition, these individuals ranged in age from 8 to
91 and received benefits for a variety of reasons, including disabilities, retirement, or a
death in the family.




4
 The individuals with larger estates were OASDI beneficiaries whose assets were not relevant to their
eligibility.




Financial-Related Audit of an Individual Representative Payee for SSA (A-03-00-10064)                   3
               Table 2: Benefits Received from SSA by Rep Payee


                                                      Benefits Received                      Total
                          Number                                                            Benefits
                          of Cases                    SSI                OASDI              Received
    SSI Only                     3                   $15,660                      0             $15,660
    OASDI Only                 47                            0           $320,781               320,781
    Concurrent                   3                      4,726               10,884                15,610
       Total                   53                    $20,386             $331,665              $352,051

The Rep Payee serves as Guardian of Property5 for 45 of the 53 individuals covered in
our audit. Guardian of Property duties include exercising ordinary diligence in dealing
with the individual’s financial affairs and property. As a Guardian of Property, the Rep
Payee is bonded and can be held liable to the individual for losses occurring due to a
lack of diligence. Although the Rep Payee is not allowed to receive a fee from SSA for
assisting these 53 individuals, Georgia law allows a Guardian of Property to earn
commissions for administering the finances of individuals in their care. For example,
the Rep Payee earns a commission on the receipt of OASDI benefits. However, the
Rep Payee does not earn a commission for individuals receiving only SSI benefits.

The Rep Payee works with other parties who serve as the Guardians of the Person.6 A
Guardian of the Person ensures an individual’s physical needs are met. Guardians of
the Person for the 53 beneficiaries in our audit included family members, caregivers,
and government agencies, such as the VA and the Dekalb County's Division of Family
and Children Services (DFCS). See Figure 1 for details.




5
  Under Georgia law, a Guardian of Property may be appointed for incapacitated adults to the extent that
such adults are incapable of managing their estates and that the appointment is necessary either because
the property will be wasted or dissipated unless proper management is provided or because the property
is needed for the support, care, or well-being of such adults or those entitled to be supported by such
adults. GA. CODE ANN. § 29-5-1(a)(2).
6
  Georgia law indicates that a Guardian of the Person is someone appointed over the person of
incapacitated adults, to the extent that such adults lack sufficient understanding or capacity to make
significant responsible decisions concerning their persons or to the extent they are incapable of
communicating such decisions. GA. CODE ANN. § 29-5-1(a)(1).


Financial-Related Audit of an Individual Representative Payee for SSA (A-03-00-10064)                      4
                                    Figure 1: Oversight of
                                    Beneficiary/Recipient
                              51%



                                                         Veterans
                                                         Affairs
                                                         Dekalb County

                                                 28%     Other Parties

                            21%



SCOPE AND METHODOLOGY

Our audit covered the period of September 1, 1999 through August 31, 2000. To
accomplish our objectives, we:

•	 Reviewed the Social Security Act, SSA regulations, rules, policies and procedures
   pertaining to Rep Payees.

•	 Contacted the SSA regional office and field office staff to obtain background
   information about the Rep Payee’s performance.

•	 Obtained from SSA’s RPS a list of individuals who were in the Rep Payee’s care
   and received SSA funds as of September 25, 2000 or who left the Rep Payee’s care
   after August 31,1999.

•	 Obtained from the Rep Payee a list of individuals who were in his care and received
   SSA funds as of September 25, 2000 or who left his care after August 31, 1999.

•	 Compared and reconciled the RPS and the Rep Payee’s lists to identify the
   population of SSA individuals who were in the Rep Payee’s care from September 1,
   1999 through August 31, 2000.

•	 Reviewed and tested the Rep Payee’s internal controls over the receipt and
   disbursement of OASDI benefits and SSI payments.

•   Performed the following tests for each beneficiary and recipient:

    -   Compared and reconciled benefit amounts paid according to the Rep Payee’s
        records to benefit amounts paid according to SSA’s records.



Financial-Related Audit of an Individual Representative Payee for SSA (A-03-00-10064)   5
   -   Reviewed the Rep Payee’s accounting records to determine whether benefits
       were properly spent or conserved on the individual’s behalf. We also
       determined whether SSA was due a refund for any overpaid benefits.

   -   Traced a sample of recorded expenses to source documents and examined the
       underlying documentation for reasonableness and authenticity.

•	 Interviewed a sample of the Rep Payee’s beneficiaries, personal guardians, or
   caregivers to determine whether their basic needs were being met.

•	 Requested a sample of 30 RPRs from SSA to determine whether income and
   expenses were correctly reported.

•	 Reviewed 38 RPRs provided by the Rep Payee to determine whether income and
   expenses were correctly reported to SSA.

•	 Interviewed Dekalb County Probate Court, DFCS, and VA representatives to
   understand and verify their accounting and monitoring processes.

•	 Reviewed selected Probate Court and VA records to independently verify
   information obtained from the Rep Payee.

•	 Recomputed a sample of commissions earned by the Rep Payee for his duties as a
   court-appointed guardian.

We performed our audit of the Rep Payee in Decatur, Georgia, and Philadelphia,
Pennsylvania, from October 2000 to March 2001. We conducted our audit in
accordance with generally accepted government auditing standards.




Financial-Related Audit of an Individual Representative Payee for SSA (A-03-00-10064)   6
                                                          Results of Review

Based on our examination, we concluded that the Rep Payee generally (1) had
effective safeguards over the receipt and disbursement of Social Security benefits and
(2) ensured Social Security benefits were used and accounted for in accordance with
SSA’s policies and procedures. However, we could not determine whether the Rep
Payee properly reported to SSA how benefits were used because SSA could not locate
any of the RPRs. During our audit, we found one case where the Rep Payee did not
timely notify SSA of changes in an individual's eligibility. We also found two cases
where disabled beneficiaries had earnings that may affect their eligibility. However,
these earnings were not reported to the Rep Payee nor investigated by SSA.
Additionally, we found (1) SSA’s RPS was inaccurate; (2) one individual had two
different rep payees; and (3) SSA needs to improve communications with other
government agencies involved with individuals under the Rep Payee's care.

OVERSIGHT OF SSA BENEFITS

We determined that, for the 53 beneficiaries who received $352,051 in SSA funds
during the period of review, the Rep Payee accurately recorded benefits received from
SSA as well as expenses incurred on behalf of the individuals under its care. Based on
our testing of expenditures, we concluded that the Rep Payee maintained source
documents for the sample items, which allowed us to determine the expenses were
reasonable and authentic. We could not determine whether the Rep Payee properly
reported to SSA how benefits were used because SSA could not locate any of the
RPRs that we requested (see Other Matters section of this Report).

ELIGIBILITY ISSUES
In 1 of the 53 cases we reviewed, the Rep Payee received SSI payments for an
ineligible recipient who had exceeded the $2,000 resource limit. This individual
inherited about $15,000 in 1998, making her ineligible for SSI payments. As a result,
the recipient was overpaid $8,092 in SSI payments, including $4,596 in our audit period
and $3,496 outside the audit period.7 The Rep Payee informed SSA of this inheritance
in March 2000, noting it had just learned of these resources. However, the accounting
records show the Rep Payee could have informed SSA of these funds as early as
October 1999. SSA did not take timely action after the Rep Payee notified SSA field
office staff of the inheritance, and as a result we referred this same issue to SSA. SSA
ceased SSI payments to this individual in March 2001 and is taking action to recover
the overpayment.

We also found that two disabled beneficiaries had earnings during our audit period that
could have affected their eligibility for benefits. These earnings were not reported to the
Rep Payee. OASDI beneficiaries receive disability benefits based on SSA’s finding that
7
    Our estimate of overpayments includes the period from July 1999 through March 2001.


Financial-Related Audit of an Individual Representative Payee for SSA (A-03-00-10064)     7
they are unable to perform substantial gainful activity. Earnings of individuals receiving
disability benefits should be reported to SSA and evaluated. One beneficiary earned
                                                                           8
$9,492 in 1999, and another earned $3,406 in 1998 and $2,682 in 1999. Although the
earnings were posted to SSA’s Master Earnings File, the first individual failed to report
the earnings to the Rep Payee, while the second individual earned the money before
the current Rep Payee was appointed. We referred these cases to field office staff for
investigation and appropriate action.

REPRESENTATIVE PAYEE SYSTEM WAS NOT ACCURATE

The RPS information on our Rep Payee was not always accurate and/or did not match
information found on SSA's Master Beneficiary Record (MBR) and the Supplemental
                          9
Security Record (SSR). The RPS contains information about Rep Payees who receive
OASDI benefits and SSI payments on behalf of others. This includes general
information about current and prior Rep Payees, the number of beneficiaries/recipients
for whom the applicant has applied or been selected, misuse of funds information, and
a listing of the beneficiaries/recipients in the Payee’s care.

We found:

•	 Three individuals were under the Rep Payee's care during our review period but
   were missing from the RPS list of active individuals for our Rep Payee. In addition,
   one individual was properly shown on the SSR under the Rep Payee, while the
   other two individuals were incorrectly listed under a different Rep Payee’s name on
   the SSR and/or MBR.

•	 One individual was deceased and should have appeared on the RPS under the Rep
   Payee's listing of individuals whose benefits were terminated.

•	 The Rep Payee was shown in the RPS under two listings: the name of the law firm
   and the name of the individual attorney serving as Rep Payee within the law firm.
   The attorney's name was the correct account.

We could not determine the causes for the RPS errors and omissions. However,
inaccurate and missing information on the RPS could result in SSA using erroneous
data in their evaluation of Rep Payees.




8
    We could not determine either individual’s monthly earnings from SSA’s records.
9
  SSA's MBR contains information about OASDI beneficiaries. SSA's SSR contains SSI recipient
information.


Financial-Related Audit of an Individual Representative Payee for SSA (A-03-00-10064)          8
TWO REPRESENTATIVE PAYEES FOR THE SAME INDIVIDUAL
One individual had two different Rep Payees; the Rep Payee in our review received the
OASDI benefits, and a second party received the SSI payments. As a result, the Rep
Payee, as the legal guardian, did not have control over all of this individual's property.
When the Rep Payee discovered the error in February 2000, it contacted the field
office, and the issue was not resolved until November 2000 (9 months later).

With two different Rep Payees, one Rep Payee might not be kept informed of the
individual’s needs, making it difficult to decide how benefits could best be used for the
individual’s care and well being. SSI eligibility also could be affected when there is
more than one Rep Payee. For instance, OASDI benefits could accumulate over the
legal resource limit, making an individual ineligible for SSI payments.

COMMUNICATIONS WITH OTHER GOVERNMENT AGENCIES
In discussions with DFCS and VA staff, we determined that SSA did not effectively
communicate and coordinate with other government agencies regarding individuals
under the Rep Payee's care. These agencies serve as Guardians of the Person for
individuals who cannot make significant decisions concerning their person. Staff from
these agencies periodically visit the individuals' residences. Staff from both agencies
expressed frustration when dealing with SSA and stated a desire for a more efficient
exchange of information. As an example, both agencies cited the need to know the
amount of SSA benefits received when setting up a budget for an individual.

In discussions with SSA employees, we found SSA was not fully aware of the role
Guardians of the Person play in caring for SSA beneficiaries/recipients. While our Rep
Payee had responsibility for an individual’s fiduciary affairs, the Guardian of the Person
also had a duty to see that the individual’s physical needs were met. In fact, the
Guardians of the Person have more frequent contact with the individuals, although they
are not shown in SSA’s records. Only the Rep Payee listed in SSA’s records can
readily obtain information from SSA, even though the individuals in our review were
often being cared for by two partiesthe Rep Payee and Guardians of the Person.
When we mentioned this situation to field office staff, they noted that SSA cannot
release any information to the Guardian of the Person due to privacy concerns.
Nonetheless, one of the agencies suggested that a designated point of contact between
SSA and the Guardians of the Person could help to facilitate the exchange of
information.




Financial-Related Audit of an Individual Representative Payee for SSA (A-03-00-10064)       9
                                                     Conclusions and
                                                    Recommendations
Generally, the Rep Payee we audited met its responsibilities. However, we found one
instance where excessive resources led to an overpayment and two additional cases of
earnings that SSA is still investigating. We also determined that the RPS did not
contain a complete listing of individuals under the Rep Payee's care and one individual
had dual Rep Payees. In the overpayment and the dual Rep Payees cases, SSA was
informed of the events but failed to take timely action. In addition, communications
between SSA and other agencies caring for individuals under the Rep Payee needed
improvement.

We recommend that SSA:

1. 	 Ensure the Rep Payee returns funds it received for the recipient who was ineligible
     due to excess resources.

2. 	 Re-emphasize procedures with the Rep Payee for notifying SSA when events occur
     that affect the eligibility of individuals in its care.

3. 	 Update the RPS to consolidate the multiple entries for this Rep Payee and include
     all individuals for whom this Rep Payee was selected. In addition, ensure that all
     individuals assigned a Rep Payee have only one Rep Payee for all SSA benefits
     received.

4. 	 Take timely action on program-related issues reported to SSA by the Rep Payee,
     such as excessive resources and dual Rep Payees.

5. 	 Consider changing its method of communication and information sharing with other
     government agencies, such as assigning a point-of-contact between SSA and other
     agencies assisting the individuals under the Rep Payee's care.

AGENCY COMMENTS

In response to our draft report, SSA agreed with our recommendations and stated that
the Agency had already initiated corrective actions. Specifically, SSA collected the
overpayment identified. In addition, SSA contacted the Rep Payee to (1) reinforce the
need for timely reporting of any events affecting an individual's eligibility and (2) update
and correct the Rep Payee's information in the RPS. The full text of SSA’s comments
can be found in Appendix A of this report.




Financial-Related Audit of an Individual Representative Payee for SSA (A-03-00-10064)     10
                                                                Other Matters

To determine whether the individual Rep Payee in our audit properly reported to SSA
how benefits were used, we requested from SSA the most recently completed RPRs for
30 of the Rep Payee's beneficiaries. While the Rep Payee's staff members stated they
submitted RPRs to SSA for all their beneficiaries, SSA was unable to provide any of the
original RPRs we requested. Because SSA did not provide all the RPRs requested, we
could not independently confirm that our audited Rep Payee met its reporting
responsibilities. For the 30 RPRs SSA did not provide, we do not know whether the
Rep Payee failed to submit the RPRs to SSA or whether the Rep Payee provided them
to SSA and SSA could not locate them.




Financial-Related Audit of an Individual Representative Payee for SSA (A-03-00-10064)   11
                                             Appendices





Financial-Related Audit of an Individual Representative Payee for SSA (A-03-00-10064)
                                                                            Appendix A


Agency Comments





Financial-Related Audit of an Individual Representative Payee for SSA (A-03-00-10064)
                                         SOCIAL SECURITY

      MEMORANDUM

      Date: June 27, 2001
                                                                         Refer To: Bluke21322

      To:    Inspector General


      From: Regional Commissioner
         Atlanta GA

      Subject: RESPONSE-Financial-Related Audit of An Individual Representative
      Payee for the Social Security Administration (A-03-00-10064)

      We appreciate the time and effort put forth in the representative payee review
      recently performed in our Region. In reference to the audit draft report submitted
      for review, we have the following comments:

      First item - We have a long established procedure in force by which overpaid
      funds are recovered. When a claimant is overpaid for any reason, overpayment
      notices are sent and the recovery procedure is followed as needed from that
      point forward. The specific record addressed in the review has been resolved.
      The payee repaid the overpaid amount in full on May 9, 2001.

      Second item - The Field Office contacted the payee via telephone to reinforce the
      need for timely reporting of any events affecting the eligibility of claimants for
      which he serves as payee. A system of contact is in place whereby the payee
      can contact the Social Security office via E-mail or telephone to provide updates
      or make inquiries on behalf of the individuals he serves.

      Third item - The Field Office is working with the payee to prepare a list of all
      claimants requiring corrective action with regard to multiple payee entries,
      address updates, and any other items needing such action. The Social Security
      office will take the appropriate action when the list is received.

      Fourth item - Timeliness of actions is recognized as a critical concern. The Field
      Office will ensure the continued timely processing of action items reported by the
      payee.

      Fifth item - Social Security routinely shares information as requested with the
      agencies in question (DFCS and VA). Requests are received either via mail or
      fax and the requested information is provided.




Financial-Related Audit of an Individual Representative Payee for SSA (A-03-00-10064)   A-1
      We are pleased with the results of the review showing that for the 53
      beneficiaries who received $352,051 in SSA funds during the period of review,
      benefits received and expenditures were accurately recorded. The payee
      audited met his responsibilities for monitoring and providing for his customers’
      needs. The areas requiring special attention or reminders have been identified
      and appropriate actions have been initiated.

      The representative payee program is a very important part of our ongoing
      workload and requires careful handling of each case. We weigh the factors in
      every case to establish the best possible means of payment to each of our
      beneficiaries. The Atlanta Region remains committed to providing the best
      possible service to our customers. We are especially attentive to our most
      vulnerable claimants, those requiring the services of a representative payee.

      Please let me know if I can be of further assistance or your staff may contact
      Barbara Luke at 404-562-1322.

                                /s/
                      Myrtle S. Habersham




Financial-Related Audit of an Individual Representative Payee for SSA (A-03-00-10064)   A-2
                                                                            Appendix B

OIG Contacts and Staff Acknowledgments
OIG Contact
   Kimberly A. Byrd, Acting Director, Operational Audit Division, (205) 801-1605

   Walter Bayer, Deputy Director, (215) 597-4080


Acknowledgments

In addition to the individuals named above:

    Richard Devers, Auditor-in-Charge

    Michael Thomson, Senior Auditor

    Walter Mingo, Auditor

    Kimberly Beauchamp, Writer/Editor




Financial-Related Audit of an Individual Representative Payee for SSA (A-03-00-10064)
                           DISTRIBUTION SCHEDULE


                                                                             No. of
                                                                            Copies

Commissioner of Social Security
                                                 1
Management Analysis and Audit Program Support Staff, OFAM
                      10
Inspector General
                                                               1
Assistant Inspector General for Investigations
                                  1
Assistant Inspector General for Executive Operations
                            3
Assistant Inspector General for Audit
                                           1
Deputy Assistant Inspector General for Audit
                                    1
 Director, Systems Audit Division
                                               1
 Director, Financial Management and Performance Monitoring Audit Division        1
 Director, Operational Audit Division                                            1
 Director, Disability Program Audit Division                                     1
 Director, Program Benefits Audit Division                                       1
 Director, General Management Audit Division                                     1
Issue Area Team Leaders 
                                                       25
Income Maintenance Branch, Office of Management and Budget
                      1
Chairman, Committee on Ways and Means
                                           1
Ranking Minority Member, Committee on Ways and Means
                            1
Chief of Staff, Committee on Ways and Means
                                     1
Chairman, Subcommittee on Social Security
                                       2
Ranking Minority Member, Subcommittee on Social Security
                        1
Majority Staff Director, Subcommittee on Social Security
                        2
Minority Staff Director, Subcommittee on Social Security
                        2
Chairman, Subcommittee on Human Resources
                                       1
Ranking Minority Member, Subcommittee on Human Resources
                        1
Chairman, Committee on Budget, House of Representatives
                         1
Ranking Minority Member, Committee on Budget, House of Representatives           1
Chairman, Committee on Government Reform and Oversight                           1
Ranking Minority Member, Committee on Government Reform and Oversight            1
Chairman, Committee on Governmental Affairs                                  1
Ranking Minority Member, Committee on Governmental Affairs                   1
Chairman, Committee on Appropriations, House of Representatives              1
Ranking Minority Member, Committee on Appropriations,
 House of Representatives                                                     1
Chairman, Subcommittee on Labor, Health and Human Services, Education
 and Related Agencies, Committee on Appropriations,
 House of Representatives                                                     1
Ranking Minority Member, Subcommittee on Labor, Health and Human
 Services, Education and Related Agencies, Committee on Appropriations,
 House of Representatives                                                     1
Chairman, Committee on Appropriations, U.S. Senate                           1
Ranking Minority Member, Committee on Appropriations, U.S. Senate             1
Chairman, Subcommittee on Labor, Health and Human Services, Education
 and Related Agencies, Committee on Appropriations, U.S. Senate              1
Ranking Minority Member, Subcommittee on Labor, Health and Human
 Services, Education and Related Agencies, Committee on Appropriations,
 U.S. Senate                                                                  1
Chairman, Committee on Finance                                               1
Ranking Minority Member, Committee on Finance                                1
Chairman, Subcommittee on Social Security and Family Policy                  1
Ranking Minority Member, Subcommittee on Social Security and Family Policy   1
Chairman, Senate Special Committee on Aging                                   1
Ranking Minority Member, Senate Special Committee on Aging                   1
Vice Chairman, Subcommittee on Government Management Information
  and Technology                                                              1
President, National Council of Social Security Management Associations,
  Incorporated                                                                1
Treasurer, National Council of Social Security Management Associations,
  Incorporated                                                                1
Social Security Advisory Board                                               1
AFGE General Committee                                                        9
President, Federal Managers Association                                      1
Regional Public Affairs Officer                                              1


Total                                                                        97
              Overview of the Office of the Inspector General


                                    Office of Audit
The Office of Audit (OA) conducts comprehensive financial and performance audits of
the Social Security Administration’s (SSA) programs and makes recommendations to
ensure that program objectives are achieved effectively and efficiently. Financial
audits, required by the Chief Financial Officers Act of 1990, assess whether SSA’s
financial statements fairly present the Agency’s financial position, results of operations,
and cash flow. Performance audits review the economy, efficiency, and effectiveness
of SSA’s programs. OA also conducts short-term management and program
evaluations focused on issues of concern to SSA, Congress, and the general public.
Evaluations often focus on identifying and recommending ways to prevent and minimize
program fraud and inefficiency.

                         Office of Executive Operations
OEO supports the OIG by providing information resource management; systems
security; and the coordination of budget, procurement, telecommunications, facilities
and equipment, and human resources. In addition, this office is the focal point for the
OIG’s strategic planning function and the development and implementation of
performance measures required by the Government Performance and Results Act.
OEO is also responsible for performing internal reviews to ensure that OIG offices
nationwide hold themselves to the same rigorous standards that we expect from SSA,
as well as conducting investigations of OIG employees, when necessary. Finally, OEO
administers OIG’s public affairs, media, and interagency activities, coordinates
responses to Congressional requests for information, and also communicates OIG’s
planned and current activities and their results to the Commissioner and Congress.


                              Office of Investigations
The Office of Investigations (OI) conducts and coordinates investigative activity related
to fraud, waste, abuse, and mismanagement of SSA programs and operations. This
includes wrongdoing by applicants, beneficiaries, contractors, physicians, interpreters,
representative payees, third parties, and by SSA employees in the performance of their
duties. OI also conducts joint investigations with other Federal, State, and local law
enforcement agencies.

                        Counsel to the Inspector General
The Counsel to the Inspector General provides legal advice and counsel to the
Inspector General on various matters, including: 1) statutes, regulations, legislation,
and policy directives governing the administration of SSA’s programs; 2) investigative
procedures and techniques; and 3) legal implications and conclusions to be drawn from
audit and investigative material produced by the OIG. The Counsel’s office also
administers the civil monetary penalty program.
